May 30, 2012

TO:            Marilyn Tavenner
               Acting Administrator
               Centers for Medicare & Medicaid Services


FROM:          /Daniel R. Levinson/
               Inspector General


SUBJECT:       Review of Medicaid Claims for Adult Mental Health Rehabilitation Services
               Made by Community Residence Providers in New Jersey (A-02-09-01028)


Attached, for your information, is an advance copy of our final report on Medicaid adult mental
health rehabilitation claims submitted by New Jersey. We will issue this report to the
New Jersey Department of Human Services within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or
James P. Edert, Regional Inspector General for Audit Services, Region II, at (212) 264-4620 or
through email at James.Edert@oig.hhs.gov. Please refer to report number A-02-09-01028.


Attachment
                                                              O FFICE OF A UDIT S ERVICES , R EGION II
                                                                J ACOB K. J AVITS F EDERAL B UILDING
May 31, 2012                                                         26 F EDERAL P LAZA , R OOM 3900
                                                                              N EW Y ORK, NY 10278
Report Number: A-02-09-01028

Jennifer Velez, Esq.
Commissioner
New Jersey Department of Human Services
222 South Warren Street
P.O. Box 700
Trenton, NJ 08625-0700

Dear Ms. Velez:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicaid Claims for Adult Mental Health
Rehabilitation Services Made by Community Residence Providers in New Jersey. We will
forward a copy of this report to the HHS action official noted on the following page for review
and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Kevin W. Smith, Audit Manager, at (518) 437-9390, extension 232, or through email at
Kevin.Smith@oig.hhs.gov. Please refer to report number A-02-09-01028 in all correspondence.

                                             Sincerely,



                                             /James P. Edert/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Jennifer Velez, Esq.


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




REVIEW OF MEDICAID CLAIMS FOR
    ADULT MENTAL HEALTH
REHABILITATION SERVICES MADE
  BY COMMUNITY RESIDENCE
  PROVIDERS IN NEW JERSEY




                       Daniel R. Levinson
                        Inspector General

                           May 2012
                         A-02-09-01028
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

In New Jersey (the State), the Department of Human Services (DHS) is the State agency
responsible for operating the Medicaid program. Within DHS, the Division of Medical
Assistance and Health Services administers the Medicaid program.

Section 1905(a)(13) of the Act authorizes optional rehabilitative services, including any medical
or remedial services (provided in a facility, a home, or another setting) recommended by a
physician or other licensed practitioner of the healing arts, within the scope of his or her practice
under State law, for maximum reduction of physical or mental disability and restoration of a
beneficiary to the best possible functional level.

The State elected to include coverage of Medicaid adult mental health rehabilitation (AMHR)
services provided to mentally ill beneficiaries residing in community residences—group homes,
supervised apartments, and family care homes—under a program administered by DHS’s
Division of Mental Health Services. Examples of AMHR services include assistance with daily
living skills, managing medication, individual services coordination, counseling, support
services, and crisis intervention.

State regulations governing AMHR services claimed by community residence rehabilitation
(CRR) providers are found at title 10, chapters 37A and 77A, of the New Jersey Administrative
Code. These regulations state, in part, that:

   •   An initial nursing assessment must be completed by a registered nurse.

   •   The assessment must be used in the development of a comprehensive service plan (CSP)
       signed by the beneficiary.

   •   The CSP must be reviewed and revised within 90 days of the date of admission and then
       no less than every 90 days for the first year and every 6 months thereafter.

   •   A registered nurse must conduct a face-to-face visit with the beneficiary within the
       required time period.

   •   The beneficiary must receive AMHR services and be present in the CRR facility.



                                                  i
   •   AMHR services must be for only treatment-related activities.

   •   Provider staff must meet education and training requirements.

   •   Staff must maintain weekly progress notes.

   •   A comprehensive nursing reassessment must be completed at least annually.

   •   Providers’ reimbursement rates are to be based upon the level of care recommended by a
       registered nurse.

OBJECTIVE

Our objective was to determine whether the State claimed Federal Medicaid reimbursement for
AMHR services provided by CRR providers in accordance with Federal and State requirements.

SUMMARY OF FINDINGS

The State did not claim Federal Medicaid reimbursement for AMHR services delivered by CRR
providers in accordance with Federal and State requirements. Of the 100 claims in our random
sample, 36 claims complied with Federal and State requirements, but 64 did not.

Of the 64 noncompliant claims, 24 contained more than 1 deficiency:

   •   For 32 claims, provider staff did not meet education and training requirements.

   •   For 23 claims, service plan requirements were not met.

   •   For 15 claims, the provider’s staffing levels were not consistent with the required level of
       care or the providers claimed a higher level of care than was recommended.

   •   For nine claims, weekly progress notes were not documented.

   •   For nine claims, a registered nurse did not conduct a face-to-face visit within the required
       time period.

   •   For nine claims, services were not documented, supported, or allowable.

   •   For five claims, nursing assessment requirements were not met.

These deficiencies occurred because: (1) State regulations were not consistent with Medicaid
State plan requirements, (2) certain CRR providers did not comply with Federal and State
requirements, and (3) the State did not adequately monitor providers for compliance with certain
Federal and State requirements.



                                                ii
Based on our sample results, we estimated that the State improperly claimed $30,589,719 in
Federal Medicaid reimbursement during our June 12, 2005, through December 26, 2007, audit
period.

RECOMMENDATIONS

We recommend that the State:

   •   refund $30,589,719 to the Federal Government,

   •   provide CRR providers with guidance to help ensure that they comply with Medicaid
       State plan requirements, and

   •   improve its monitoring of providers’ claims to ensure compliance with Federal and State
       requirements.

DEPARTMENT OF HUMAN SERVICES COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, DHS agreed with some of our findings related to our
first recommendation and described the actions it was taking to address our second and third
recommendations. With respect to our first recommendation, DHS stated that, in some cases,
providers located additional documentation to support sample claims questioned in our draft
report. DHS provided this documentation, as well as providers’ written explanations for some of
the claims, under separate cover. In addition, DHS stated that it believes that our sampling
methodology resulted in inaccurate findings.

After reviewing DHS’s comments and additional documentation, we revised our findings and
modified our statistical estimates accordingly. DHS’s comments appear in their entirety as
Appendix E.




                                              iii
                                                   TABLE OF CONTENTS

                                                                                                                               Page

INTRODUCTION..............................................................................................................1

      BACKGROUND ..........................................................................................................1
         Medicaid Program .................................................................................................1
         Federal and State Requirements Related to Adult Mental Health
          Rehabilitation Services .......................................................................................1
         New Jersey’s Adult Mental Health Rehabilitation Services Program ...................2

      OBJECTIVE, SCOPE, AND METHODOLOGY ........................................................2
         Objective................................................................................................................2
         Scope .....................................................................................................................2
         Methodology..........................................................................................................3

FINDINGS AND RECOMMENDATIONS ....................................................................3

      STAFF EDUCATION AND TRAINING REQUIREMENTS NOT MET .................4

      COMPREHENSIVE SERVICE PLAN REQUIREMENTS NOT MET .....................5

      LEVEL-OF-CARE REQUIREMENTS NOT MET.....................................................5

      WEEKLY PROGRESS NOTES NOT DOCUMENTED ............................................6

      FACE-TO-FACE NURSING REVIEW REQUIREMENTS NOT MET ....................6

      SERVICES NOT DOCUMENTED, SUPPORTED, OR ALLOWABLE ...................6

      NURSING ASSESSMENT REQUIREMENTS NOT MET .......................................7

      CAUSES OF THE UNALLOWABLE CLAIMS ........................................................7
         State Regulations Not Fully Consistent With Medicaid
           State Plan Requirements .....................................................................................7
         Certain Community Residence Rehabilitation Providers
           Noncompliant With Federal and State Requirements ........................................8
         Community Residence Rehabilitation Providers Inadequately Monitored ..........8

      ESTIMATE OF THE UNALLOWABLE AMOUNT .................................................8

      RECOMMENDATIONS ..............................................................................................8




                                                                      iv
  DEPARTMENT OF HUMAN SERVICES COMMENTS AND
  OFFICE OF INSPECTOR GENERAL RESPONSE ...................................................9
     Office of Inspector General Sampling Methodology ............................................9
     Staff Education and Training Requirements Not Met .........................................10
     Comprehensive Service Plan Requirements Not Met .........................................10
     Level-of-Care Requirements Not Met .................................................................10
     Weekly Progress Notes Not Documented ...........................................................11
     Face-to-Face Nursing Review Requirements Not Met .......................................11
     Services Not Documented, Supported, or Allowable ..........................................12
     Nursing Assessment Requirements Not Met .......................................................12

APPENDIXES

     A: LEVELS OF CARE AUTHORIZED BY THE DIVISION OF MEDICAL
         ASSISTANCE AND HEALTH SERVICES

     B: SAMPLE DESIGN AND METHODOLOGY

     C: SAMPLE RESULTS AND ESTIMATES

     D: SUMMARY OF DEFICIENCIES FOR EACH SAMPLED CLAIM

     E: DEPARTMENT OF HUMAN SERVICES COMMENTS




                                                       v
                                               INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

In New Jersey (the State), the Department of Human Services (DHS) is the State agency
responsible for operating the Medicaid program. Within DHS, the Division of Medical
Assistance and Health Services administers the Medicaid program.

Federal and State Requirements Related to Adult Mental Health Rehabilitation Services

Section 1905(a)(13) of the Act and 42 CFR § 440.130(d) authorize optional rehabilitation
services, including any medical or remedial services (provided in a facility, a home, or another
setting) recommended by a physician or other licensed practitioner of the healing arts, within the
scope of his or her practice under State law, for maximum reduction of physical or mental
disability and restoration of a beneficiary to the best possible functional level.

Title 10, chapters 37A and 77A, of the New Jersey Administrative Code (NJAC) establish
standards for Medicaid reimbursement of community residence services and standards for adult
mental health rehabilitation (AMHR) service planning and review by community residence
rehabilitation (CRR) providers. 1 These regulations state, in part, that: (1) an initial nursing
assessment must be completed by a registered nurse within 14 days of a beneficiary’s admission;
(2) the assessment must be used in the development of a comprehensive service plan (CSP)
signed by the beneficiary; (3) the CSP must be reviewed and revised within 90 days of the date
of admission and then no less than every 90 days for the first year and every 6 months thereafter;
(4) a registered nurse must conduct a face-to-face visit with the beneficiary within the required
time period; 2 (5) the beneficiary must receive AMHR services and be present in the CRR

1
  Specifically, NJAC 10:37A (“Community Residences for Mentally Ill”) establishes standards for the State’s
community residence program, and NJAC 10:77A (“AMHR Services Provided In/By Community Residence
Programs”) establishes Medicaid requirements for enrolled beneficiaries. Pursuant to NJAC 10:77A, all community
residence program and licensure requirements in NJAC 10:37A must be met.
2
  For a portion of our audit period (June 12, 2005, through June 18, 2007), DHS required a face-to-face interview
every 60 days. Effective June 19, 2007, the State amended this requirement to mirror a 90-day requirement for
“face-to-face health care monitoring visits” cited in NJAC 10:37A-4.5(c)(9). Specifically, after our audit period, in
December 2009, DHS submitted a State plan amendment (No. 09-11) to CMS for approval concerning face-to-face
reviews. CMS approved the State plan amendment on April 8, 2011, with an effective date retroactive to
June 19, 2007.

                                                          1
facility; (6) AMHR services must be for only treatment-related activities; (7) staff providing
services must meet education and training requirements; (8) staff must maintain weekly progress
notes; (9) a comprehensive nursing reassessment must be completed at least annually; and (10)
providers’ reimbursement rates are to be based on the level of care recommended by a registered
nurse.

The State elected to include Medicaid coverage of AMHR services provided to beneficiaries in
community residences under a program administered by DHS’s Division of Mental Health
Services (DMHS).

New Jersey’s Adult Mental Health Rehabilitation Services Program

DMHS, through its AMHR program, provides Medicaid rehabilitation services to adults with
mental illness who reside in community residences, i.e., group homes, supervised apartments,
and family care homes. 3 AMHR services for these beneficiaries include assistance with daily
living skills, medication management, services coordination, counseling, support services, and
crisis intervention.

Program eligibility is determined by a licensed practitioner of the healing arts who, at a
minimum, is a State-licensed registered nurse. In community residences, CRR providers develop
CSPs, provide AMHR services, and monitor and periodically evaluate beneficiaries’ progress.
Providers are expected to maintain records documenting AMHR service authorizations, CSPs,
progress notes, and staff credentials and training. Medicaid reimbursement is based on specific
levels of care (e.g., duration of care) that the CRR provider delivers. Appendix A summarizes
the five levels of care authorized for reimbursement.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State claimed Federal Medicaid reimbursement for
AMHR services provided by CRR providers in accordance with Federal and State requirements.

Scope

Our review covered 555,475 AMHR services claim lines, totaling $129,249,164 ($64,630,451
Federal share), submitted by 40 CRR providers in the State for the period June 12, 2005, through
December 26, 2007. (In this report, we refer to these lines as “claims.”)

We did not review the overall internal control structure of DHS, DMHS, or the Medicaid
program. Rather, we reviewed only the internal controls that pertained directly to our objective.

We conducted fieldwork at the DMHS’s offices in Trenton, New Jersey, and at 23 CRR
providers throughout the State.

3
 As part of its licensing process, DMHS certifies the level of care and the number of beds and sites for each CRR
services provider.

                                                         2
Methodology

To accomplish our objective, we:

       •   reviewed applicable Federal and State requirements;

       •   held discussions with DMHS officials to gain an understanding of the program;

       •   obtained from the State agency’s contractor a sampling frame of 555,475 AMHR services
           claims, totaling $129,249,164 ($64,630,451 Federal share), made by 40 CRR providers
           for the period June 12, 2005, through December 26, 2007;

       •   selected a stratified random sample of 100 claims from the sampling frame of 555,475
           claims, and for these 100 claims, we:

               o reviewed the corresponding provider’s documentation supporting the claim,

               o interviewed provider officials to identify provider policies and procedures for
                 authorizing and reauthorizing AMHR services, and

               o reviewed the professional credentials and training records of the provider staff
                 person(s) who delivered AMHR services; and

       •   estimated the unallowable Federal Medicaid reimbursement paid in the sampling frame.

Appendix B contains the details of our sample design and methodology, and Appendix C
contains our sample results and estimates.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                 FINDINGS AND RECOMMENDATIONS

The State did not claim Federal Medicaid reimbursement for AMHR services delivered by CRR
providers in accordance with Federal and State requirements. Of the 100 claims in our random
sample, 36 claims complied with Federal and State requirements, but 64 did not. Of the 64
claims, 24 contained more than 1 deficiency. 4 The table below summarizes the deficiencies
noted and the number of claims that contained each type of deficiency. Appendix D summarizes
the deficiencies, if any, identified for each sampled claim.



4
    Of the 64 claims that did not comply, 48 were fully unallowable and 16 were partially unallowable.


                                                           3
                               Summary of Deficiencies in Sampled Claims
                                                                                      Number of Unallowable
                         Type of Deficiency                                                 Claims 5
Staff education and training requirements not met                                                  32
Comprehensive service plan requirements not met                                                    23
Level-of-care requirements not met                                                                 15
Weekly progress notes not documented                                                                9
Face-to-face nursing review requirements not met                                                    9
Services not documented, supported, or allowable                                                    9
Nursing assessment requirements not met                                                             5

These deficiencies occurred because: (1) State regulations were not consistent with Medicaid
State plan requirements, (2) certain CRR providers did not comply with Federal and State
requirements, and (3) the State did not adequately monitor providers for compliance with certain
Federal and State requirements.

Based on our sample results, we estimated that the State improperly claimed $30,589,719 in
Federal Medicaid reimbursement during our June 12, 2005, through December 26, 2007, audit
period.

STAFF EDUCATION AND TRAINING REQUIREMENTS NOT MET

Pursuant to NJAC 10:77A-2.4(b), each Medicaid provider must develop, update, and administer
a comprehensive, competency-based training program for individuals providing adult mental
health residential services. 6 CRR providers are required to document that all staff providing
AMHR services to residents receive training (NJAC 10:37A-3.1(a)(4)). In addition, pursuant to
NJAC 10:77A-2.4(d), individuals who provide AMHR services who have not completed the
required training must not deliver the AMHR services alone. Such individuals must be
supervised by, and deliver the AMHR services in conjunction with, a trained person who is
onsite and provides in-person supervision.

For 32 of the 100 claims in our sample, AMHR services were provided by staff members who
did not complete the required training before the sampled service date or whose training was not
documented. In addition, we found no evidence that, on the sampled service date, these staff
members were supervised onsite and in-person by a trained staff member.



5
    The total exceeds 64 because 24 claims contained more than 1 deficiency.
6
  Competency-based training programs involve measurable skill development and demonstrated, documented
evidence of employee skill attainment. Required training curriculum topics include, among other subjects, an
overview of AMHR services; emergency preparedness, including, but not limited to, cardiopulmonary resuscitation,
first aid, crisis prevention, and infection control; medication; activities of daily living skills; and documenting
services.

                                                          4
COMPREHENSIVE SERVICE PLAN REQUIREMENTS NOT MET

Pursuant to NJAC 10:37A-4.5(c)(8), “[t]he CSP should be reviewed and revised as necessary, by
the 90th day of admission and then no less frequently than every 90 days for the first year of
treatment, and every six months thereafter.” In addition, State regulations require that the CSP
be signed by both a registered nurse (NJAC 10:37A-5.2(b)(1)) and the beneficiary (NJAC
10:37A-4.5(c)(6)). If the beneficiary is unwilling or unable to sign, the reason must be
documented on the CSP.

For 23 of the 100 claims in our sample, CSP requirements were not met. 7 Specifically:

       •   For 10 claims, a registered nurse did not sign the CSP.

       •   For eight claims, the CSP was not reviewed and revised within 6 months of the sample
           claim date. Specifically, the CSP was reviewed and revised between 7 months to 2 years
           before the sample claim date.

       •   For six claims, the beneficiary did not sign the CSP and no reason was documented.

       •   For four claims submitted during the first year of the beneficiary’s treatment, the CSP
           was not reviewed and revised within 90 days of the sample claim.

LEVEL-OF-CARE REQUIREMENTS NOT MET

Rehabilitative services must be recommended by a physician or other licensed practitioner of the
healing arts (42 CFR § 440.130(d)). Pursuant to NJAC 10:77A-2.3(b)(1), the initial nursing
assessment must include a recommendation for an appropriate level of AMHR service. The
comprehensive nursing reassessment must include a justification for the continuation of AMHR
services and a recommendation for the appropriate level of care (NJAC 10:77A-2.3(d)).
Pursuant to NJAC 10:77A-2.5, Medicaid reimbursement for AMHR services provided in or by a
community residence is to be based on the specific level of care delivered by the CRR provider. 8
(See Appendix A.) Further, pursuant to NJAC 10:77A-2.5(g), if a beneficiary is required to
remain in a residence while awaiting transfer to a more appropriate facility, the provider must
request reimbursement at the lesser of the level of AMHR service approval for the site or the
level of care that the resident requires.

For 15 of the 100 claims in our sample, level-of-care requirements were not met. Specifically:

       •   For 10 claims, the CRR provider’s staffing level was not consistent with the level of care
           for which the provider was reimbursed. For example, for one claim, the provider billed
           the recommended level of care (Level A+), which required 24-hour staff coverage.


7
    The total exceeds 23 because 4 claims contain more than 1 deficiency.
8
 Attachment 4.19B of the Medicaid State plan details the five levels of care reimbursed by the State Medicaid
program and, for each level, the requirements related to the availability of and the number of services provided.

                                                           5
        However, the provider could document only that it had provided 15 hours of staff
        coverage.

    •   For five claims, the CRR provider claimed reimbursement for a higher level of care than
        what was recommended by the registered nurse.

WEEKLY PROGRESS NOTES NOT DOCUMENTED

Pursuant to NJAC 10:37A-4.5(c)(10), CRR providers must document the beneficiary’s clinical
course of treatment and community living skills in the progress notes. The regulation states that
progress must be documented by a weekly summary.

For 9 of the 100 claims in our sample, the CRR provider could not document that weekly
progress notes reflecting the beneficiary’s clinical course of treatment and community living
skills were prepared for the sample claim.

FACE-TO-FACE NURSING REVIEW REQUIREMENTS NOT MET

The Medicaid State plan requires that clinical supervision of beneficiaries receiving AMHR
services be provided “on an as-needed basis, including, at a minimum, face to face visits every
60 days” (addendum to Attachment 3.1-A of the Medicaid State plan). Further, pursuant to
NJAC 10:77A-2.3(c), a registered nurse or higher level professional must conduct a face-to-face
review 9 of the beneficiary at least every 60 days. Effective June 19, 2007, DHS amended its
Medicaid State plan to require a face-to-face visit every 90 days.

For 9 of the 100 claims in our sample, the CRR provider did not perform or document a face-to-
face review within the required time period. Specifically, for three claims provided prior to the
effective date of the Medicaid State plan amendment, a face-to-face review was not performed
within 60 days of the claim date and for one claim provided after the effective date, a face-to-
face review was not performed within 90 days of the claim date. For the remaining five claims,
the provider did not document a face-to-face review.

SERVICES NOT DOCUMENTED, SUPPORTED, OR ALLOWABLE

Pursuant to NJAC 10:77A-2.5(b), reimbursement for Medicaid AMHR services provided by or
in community residence programs is to be made on a fee-for-service basis for each level of care
and is billable in either per diem or quarter-hours units of service. The fee must not include non-
treatment- and/or non-rehabilitation-related services, including, but not limited to, room and
board and recreational and vocational services. Pursuant to NJAC 10:77A-2.5(c)(1), CRR
providers must seek reimbursement on a per diem basis only for the dates that the beneficiary
received AMHR services. Pursuant to NJAC 10:77A-2.5(c)(2), providers may seek
reimbursement on a per diem basis for AMHR services provided on the date the beneficiary is


9
 During each face-to-face review, the professional is required, at a minimum, to: (1) review the beneficiary’s CSP,
(2) review observations and progress notes made by the direct-care staff, (3) assess the beneficiary’s health, and
(4) indicate any changes needed in treatment approaches in the CSP.

                                                         6
admitted to the facility but must not seek reimbursement for AMHR services provided on the
date of discharge.

NJAC 10:77A-2.5(d) states that a quarter-hour unit of service is defined as 15 consecutive
minutes of service.

For 9 of the 100 claims in our sample, the AMHR service was not documented, supported, or
allowable. 10 Specifically:

       •   For three claims, the provider’s service log did not support the number of AMHR
           services billed.

       •   For two claims, the provider did not provide documentation for services provided.

       •   For two claims, the provider did not have a service log to support that AMHR services
           were actually delivered.

       •   Two claims contained unallowable AMHR services. Specifically, one claim was for an
           AMHR service on the date the beneficiary was discharged from the community
           residence, and one claim was for recreational services.

       •   One claim was for a quarter-hour unit of service that lasted only 5 minutes.

NURSING ASSESSMENT REQUIREMENTS NOT MET

Pursuant to NJAC 10:77A-2.3(b), the initial nursing assessment must be completed within
14 calendar days of admission, justify the need for continued mental health rehabilitation
services, and recommend an appropriate level of service. Pursuant to NJAC 10:77A-2.3(d),
comprehensive nursing assessments must be completed at least annually, justify continuation of
services, and recommend an appropriate level of care.

For 5 of the 100 claims in our sample, nursing assessment requirements were not met.
Specifically, for four claims, there was no annual nursing assessment and for one claim, the
initial nursing assessment was not performed within 14 days of admission. For this claim, the
initial nursing assessment was performed 31 days after admission.

CAUSES OF THE UNALLOWABLE CLAIMS

State Regulations Not Fully Consistent With Medicaid State Plan Requirements

The Medicaid State plan requires that “ … clinical supervision be provided on an as needed
basis, including at a minimum, face to face visit every 60 days or more frequently based upon
significant change in the individual’s condition.” Before June 19, 2007, State regulations at
NJAC 10:77A-2.3 required a “face-to-face review” of the beneficiary at least every 60 days but

10
     The total exceeds nine because one claim has multiple deficiencies.

                                                            7
State regulations at NJAC 10:37A-4.5(c)(9) required a “face-to-face health care monitoring
review” every 90 days. On June 18, 2007, the State revised NJAC 10:77A to reflect the 90-day
requirement at NJAC 10:37A. After our fieldwork, the State requested that CMS amend the
Medicaid State plan to incorporate the 90-day requirement. CMS approved the request in April
2011 with an effective date retroactive to June 19, 2007.

Certain Community Residence Rehabilitation Providers Noncompliant With Federal and
State Requirements

Some of the claims were improper because certain CRR providers did not comply with Federal
and State requirements. The Addendum to Attachment 3.1-A, page 13(d).9, of the Medicaid
State plan requires that beneficiaries receive AMHR services delivered pursuant to a CSP
prepared by a treatment team. However, we found that some providers did not have CSPs in
place for the period reviewed or they operated under CSPs that were not signed by the treatment
team. In addition, State regulations at NJAC 10:77A-2.4 require CRR providers to develop and
implement training curriculums that include specific topics (e.g., emergency preparedness).
However, we found that certain providers did not include all the required topics in their
curriculums or did not document that their employees had attended training.

Community Residence Rehabilitation Providers Inadequately Monitored

We determined that monitoring of CRR providers for compliance with applicable requirements
by the State was not adequate. From January 2005 through December 2007, the State conducted
11 monitoring reviews and found deficiencies at 8 providers. These reviews identified
deficiencies similar to those found in our audit.

ESTIMATE OF THE UNALLOWABLE AMOUNT

Of the 100 AMHR service claims sampled, 64 were not made in accordance with Federal and
State requirements. Based on our sample results, we estimated that the State improperly claimed
$30,589,719 in Federal Medicaid reimbursement during our June 12, 2005, through
December 26, 2007, audit period. (See Appendix C.)

RECOMMENDATIONS

We recommend that the State:

   •   refund $30,589,719 to the Federal Government,

   •   provide CRR providers with guidance to help ensure that they comply with Medicaid
       State plan requirements, and

   •   improve its monitoring of providers’ claims to ensure compliance with Federal and State
       requirements.




                                               8
DEPARTMENT OF HUMAN SERVICES COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, DHS agreed with some of our findings related to our
first recommendation and described the actions it was taking to address our second and third
recommendations. With respect to our first recommendation, DHS stated that, in some cases,
providers located additional documentation to support sample claims questioned in our draft
report. DHS provided this documentation, as well as providers’ written explanations for some of
the claims, under separate cover. 11 In addition, DHS stated that it believes that our sampling
methodology resulted in inaccurate findings.

After reviewing DHS’s comments and additional documentation, we revised our findings and
modified our statistical estimates accordingly. DHS’s comments appear in their entirety as
Appendix E.

Office of Inspector General Sampling Methodology

Department of Human Services Comments

DHS questioned our sampling methodology used to determine the estimates for the
overpayments associated with unallowable claims for AMHR services and said that it resulted in
inaccurate findings and recommendations. DHS stated that the sample we drew does not
accurately reflect the relative value of claims in each stratum. DHS stated that it does not believe
that the sample sizes were large enough for an accurate estimate of overpayments for
unallowable claims for AMHR services.

Office of Inspector General Response

We followed our longstanding statistical sampling policies with regard to both stratification and
sample size. The Departmental Appeals Board (Board) has supported the Office of Inspector
General’s (OIG) use of statistical sampling to calculate the disallowances in accordance with
these policies. Specifically, in one case involving OIG’s use of statistical sampling, the Board
stated that “Since the individual case determinations were voluminous, the auditors used
statistical sampling techniques in lieu of examining all records to establish the amount of
disallowance, an approach upheld in principle by the courts and this Board before.” 12



11
  DHS provided two DVDs of additional documentation. The documentation related to 67 sample claims
questioned in our draft report that were associated with 18 different providers. In addition to providing
documentation, much of which we had already reviewed during our fieldwork, DHS submitted providers’
explanations of what it called the “Context and Mitigating Circumstances” for the sample claims.
12
  New Jersey Department of Human Services, DAB No. 2415 (2011); see also California Department of Social
Services, DAB No. 816 (1986); Maine Department of Health and Human Services, DAB No. 2292 (2009); New
York State Office of Children and Family Services, DAB No. 1984 (2005); California Department of Social
Services, DAB No. 524 (1984); Ohio Department of Public Welfare, DAB No. 226 (1981); and precedents cited
therein.

                                                         9
Staff Education and Training Requirements Not Met

Department of Human Services Comments

DHS stated that, under separate cover, it provided additional documentation for 18 sample
claims questioned in our draft report. For each of the claims, DHS described the documentation
provided, most of which consisted of employee training certificates.

Office of Inspector General Response

Based on the State’s additional documentation, we fully allowed two claims (2-3 and 2-11),
partially allowed two additional claims (1-10 and 2-35), and revised our related finding and
statistical estimates accordingly. For 10 other sample claims, the additional documentation did
not adequately support that staff education and training requirements had been met. For three
other sample claims, DHS did not provide documentation. DHS submitted explanations from
providers regarding why the claims were in error, none of which led us to change our
determinations. For the remaining sample claim, DHS provided documentation we had already
reviewed during our fieldwork.

Comprehensive Service Plan Requirements Not Met

Department of Human Services Comments

DHS stated that, under separate cover, it provided additional documentation for two sample
claims questioned in our draft report. For sample claim number 2-6, DHS stated that although no
service plan was included in the beneficiary’s file by the due date, other documentation
demonstrates that the client received services and, therefore, the claim should be allowed. For
sample claim number 2-44, DHS stated that the claim was correct; however, the registered nurse
signed the CSP more than 1 month after the CSP was reviewed and authorized by the beneficiary
and provider staff.

Office of Inspector General Response

DHS did not provide any additional documentation for these two sample claims. However, it
provided explanations from the providers, neither of which led us to change our determinations.
For sample claim number 2-6, the provider agreed that there was no CSP for the sample service
date. For sample claim number 2-44, the provider stated that the claim was correct but that the
registered nurse signed the CSP 41 days after it was due to be reviewed.

Level-of-Care Requirements Not Met

Department of Human Services Comments

DHS stated that, under separate cover, it provided additional documentation for five sample
claims questioned in our draft report. For two claims, DHS submitted additional timesheets to



                                               10
support the level-of-care requirement. For the remaining three claims, it provided comments
related to causes and mitigating circumstances.

Office of Inspector General Response

Based on the State’s additional documentation, we allowed two claims (1-15 and 2-11);
however, claim number 2-11 was fully adjusted above, under the “Staff Education and Training
Requirements Not Met” finding. Therefore, we revised our statistical estimates for claim
number 1-15 only. For the remaining three sample claims, the providers’ explanations did not
lead us to change our determinations.

Weekly Progress Notes Not Documented

Department of Human Services Comments

DHS stated that, under separate cover, it provided additional documentation for four sample
claims questioned in our draft report.

Office of Inspector General Response

DHS provided additional documentation for only one sample claim (2-27), which made it
partially allowable, and we revised our related finding and statistical estimates accordingly. For
the remaining three sample claims, DHS provided explanations from the providers, none of
which led us to change our determinations. For all three sample claims, providers failed to
document the progress of the beneficiary toward rehabilitation.

Face-to-Face Nursing Review Requirements Not Met

Department of Human Services Comments

DHS stated that, under separate cover, it provided additional documentation for three sample
claims questioned in our draft report. For each of the claims, DHS described the documentation
provided and the providers’ explanations for the deficiencies we noted.

DHS also stated that it intended to change the Medicaid State plan requirement for face-to-face
nursing reviews from 60 days to 90 days. DHS stated that, when we brought the difference in
Federal and State requirements to its attention, it immediately submitted a State Plan
Amendment (SPA) application to CMS, which CMS approved retroactive to the day after the
State changed its regulation (June 19, 2007). 13

Office of Inspector General Response

We reviewed claims based on the SPA in effect for the sampled service date. Specifically, for
claims with service dates before June 19, 2007, a face-to-face nursing review was required every

13
     CMS approved the SPA on April 8, 2011.


                                                11
60 days. For claims with service dates from June 19, 2007, forward, a face-to-face nursing
review was required every 90 days. DHS provided additional documentation for only one
sample claim (2-13), which was a computer printout that indicated the period the face-to-face
nursing review covered. However, the documentation indicated that the review occurred 31 days
after it was due. 14 For the remaining two claims, DHS provided documentation that we had
already reviewed during our fieldwork.

Services Not Documented, Supported, or Allowable

Department of Human Services Comments

DHS stated that, under separate cover, it provided additional documentation for three sample
claims questioned in our draft report. In addition, for each of the claims, DHS described the
documentation provided and the providers’ explanations for the deficiencies we noted. For
example, for sample claim number 1-42, DHS stated that the provider “billed 6 units from the
99 minute chunk. They did not bill the 5 minute contacts.”

Office of Inspector General Response

DHS provided documentation for only one claim, and it was identical to what we had already
reviewed during our fieldwork. The explanations from the providers did not lead us to change
our determinations. Regarding sample claim number 1-42, the provider’s explanation did not
mention that the provider claimed services totaling 99 minutes each for 20 additional
beneficiaries at the same time and place for “medication management.”

Nursing Assessment Requirements Not Met

Department of Human Services Comments

DHS stated that, under separate cover, it provided additional documentation for one sample
claim questioned in our draft report.

Office of Inspector General Response

We accepted the new documentation (a signed nursing assessment) and revised this finding
accordingly; however, the claim remains unallowable because it contained three additional
errors.




14
  The sample service date (March 15, 2006) predated the effective date of the SPA. Therefore, the 60-day
requirement was in effect.

                                                       12
APPENDIXES
                 APPENDIX A: LEVELS OF CARE AUTHORIZED BY
          THE DIVISION OF MEDICAL ASSISTANCE AND HEALTH SERVICES

Level of Care    Definition                      Location     Rate
Level A+         Provided to beneficiary         Group Home   $164 per diem
                 residents 24 hours per day, 7
                 days a week. This includes
                                                 Supervised   $164 per diem
                 awake, overnight staff
                                                 Apartment
                 coverage.
Level A          Available to beneficiary        Group Home   $131 per diem
                 residents 12 or more hours
                 per day (but less than 24       Supervised   $66 per diem
                 hours), 7 days per week.        Apartment
Level B          Available to beneficiary        Group Home   $102 per diem
                 residents 4 or more hours per
                 day (but less than 12 hours),   Supervised   $3.75 per quarter
                 7 days per week.                Apartment    hour
Level C          Available to beneficiary        Group Home
                 residents 1 or more hours per                $3.75 per quarter
                 day (but less than 4 hours),                 hour
                 7 days per week.                Supervised
                                                 Apartment    $3.75 per quarter
                                                              hour
Level D          Available to beneficiary      Family Home    $40 per diem
                 residents 24 hours per day by
                 a family home care provider.
                                                                                      Page 1 of 2


                APPENDIX B: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population was adult mental health rehabilitation (AMHR) service claim lines (claims)
provided by community residence rehabilitation (CRR) providers that were submitted for Federal
Medicaid reimbursement by New Jersey (the State). The claims were for AMHR services
provided from December 26, 2004, through December 19, 2007, with payment dates from
June 12, 2005, through December 26, 2007 (our audit period).

SAMPLING FRAME

The sampling frame was a computer file containing 555,475 claims for AMHR services
delivered by CRR providers in the State during our audit period. The total Medicaid
reimbursement for the 555,475 claims was $129,249,164 ($64,630,451 Federal share). The
claims were extracted from the State’s Medicaid payment files provided to us by staff of the
State’s Medicaid Management Information System fiscal agent.

SAMPLE UNIT

The sample unit was an individual Federal Medicaid claim from the sampling frame.

SAMPLE DESIGN

We used stratified random sampling to evaluate the population of Federal Medicaid claims. To
accomplish this, we separated the sampling frame into two strata, as follows:

       Stratum 1: less than $200 (Federal share)—505,307 claims
       Stratum 2: equal to or greater than $200 (Federal share)—50,168 claims

SAMPLE SIZE

We selected a sample of 100 claims, with 50 items per stratum.

SOURCE OF THE RANDOM NUMBERS

The source of the random numbers was the Office of Audit Services’ statistical software,
RAT-STATS. We used the random number generator for our sample.

METHOD FOR SELECTING SAMPLE ITEMS

We consecutively numbered the claims in each stratum. After generating 50 random numbers
for each stratum, we selected the corresponding frame items. We then created a list of 100
sample items.
                                                                                 Page 2 of 2


ESTIMATION METHODOLOGY

We used RAT-STATS to calculate our estimates. We used the lower limit of a 90-percent
confidence level to estimate the overpayment associated with the unallowable claims.
                  APPENDIX C: SAMPLE RESULTS AND ESTIMATES

                                 Sample Details and Results
                        Value of                   Value of                       Value of
                         Frame                      Sample                       Unallowable
Stratum   Claims in     (Federal     Sample        (Federal        Unallowable     Claims
Number     Frame         Share)        Size         Share)           Claims    (Federal Share)
   1       505,307      $26,797,141      50           $3,332           27           $1,637
   2        50,168      $37,833,310      50          $37,611           37          $22,980

 Total     555,475      $64,630,451       100          $40,943           64         $24,617


                                 Estimated Unallowable Costs
                      (Limits Calculated for a 90-Percent Confidence Level)

                           Point estimate                  $39,604,114
                           Lower limit                     $30,589,719
                           Upper limit                     $48,618,509
                                                                                    Page 1 of 3


        APPENDIX D: SUMMARY OF DEFICIENCIES FOR EACH SAMPLED CLAIM

                                                   Legend
         Deficiency 1       Staff education and training requirements not met
         Deficiency 2       Comprehensive service plan requirements not met
         Deficiency 3       Level-of-care requirements not met
         Deficiency 4       Weekly progress notes not documented
         Deficiency 5       Face-to-face nursing review requirements not met
         Deficiency 6       Services not documented, supported, or allowable
         Deficiency 7       Nursing assessments requirement not met

Claim   Deficiency Deficiency Deficiency Deficiency Deficiency Deficiency Deficiency
 No.        1          2          3          4          5          6          7            Total
1-01        X                     X                                                                2
1-02                                                                                               0
1-03                                                                                               0
1-04                                                                                               0
1-05                    X                        X                                                 2
1-06                                                                                               0
1-07       X                         X                                                             2
1-08*      X                                                                                       1
1-09                                                                                               0
1-10*                                X                                                             1
1-11       X            X                                                       X                  3
1-12                    X                                                                          1
1-13                                                                                               0
1-14                                                                                               0
1-15                                                                                               0
1-16                                                                                               0
1-17       X                                                                                       1
1-18                                 X                                                             1
1-19       X                                                                                       1
1-20                    X                                                                          1
1-21                    X                                                                          1
1-22                                                                                               0
1-23                                                                                               0
1-24       X                                                                                       1
1-25                    X                        X                                                 2
1-26       X                                                                                       1
1-27                                 X                                                             1
1-28       X                                                                                       1
                                                                                  Page 2 of 3


Claim   Deficiency Deficiency Deficiency Deficiency Deficiency Deficiency Deficiency
 No.        1          2          3          4          5          6          7          Total
1-29                                                                                             0
1-30                  X                                                                          1
1-31                                                                          X                  1
1-32       X                                                       X                             2
1-33                  X                                                                          1
1-34       X          X           X                                                              3
1-35       X                                                                                     1
1-36                                                                                             0
1-37                                         X                                                   1
1-38                                                                                             0
1-39                                                                                             0
1-40                                                                                             0
1-41                                         X                                                   1
1-42                                                               X                             1
1-43                                                                                             0
1-44                                                                                             0
1-45                                                                                             0
1-46                                                                                             0
1-47                                                                                             0
1-48                                                                                             0
1-49                                                                                             0
1-50       X                      X                                                              2
2-01*      X                                                                                     1
2-02                                                                                             0
2-03                                                                                             0
2-04*      X                                                                                     1
2-05*                             X                                                              1
2-06                  X                                                                          1
2-07                                                               X                             1
2-08                                                    X                                        1
2-09*                             X                                           X                  2
2-10*      X                                                                                     1
2-11                                                                                             0
2-12                  X                                            X                             2
2-13*                             X                     X                                        2
2-14                                                                                             0
2-15                                                                                             0
2-16                                         X                                                   1
2-17       X          X                      X          X                                        4
                                                                               Page 3 of 3


Claim Deficiency Deficiency Deficiency Deficiency Deficiency Deficiency Deficiency
 No.      1          2          3          4          5          6          7         Total
2-18                                                                                           0
2-19      X                                                                 X                  2
2-20*     X                                                                                    1
2-21      X                     X          X                                                   3
2-22                                                                                           0
2-23                                                                                           0
2-24      X          X                                           X          X                  4
2-25*     X                                                                                    1
2-26                                                             X                             1
2-27*     X                                                                                    1
2-28      X                                X                                                   2
2-29*     X                                                                                    1
2-30                                                                                           0
2-31      X          X                     X          X                                        4
2-32                 X                                X                                        2
2-33                 X                                                                         1
2-34                                                                                           0
2-35*     X                                                                                    1
2-36                 X                                X                                        2
2-37                                                                                           0
2-38      X          X          X                                X                             4
2-39*                                                 X                                        1
2-40                                                                                           0
2-41                 X                                                                         1
2-42*                                                 X                                        1
2-43      X          X                                           X                             3
2-44                 X          X                                                              2
2-45                 X                                                                         1
2-46      X                     X                                                              2
2-47                                                                                           0
2-48                 X                                                                         1
2-49      X                     X                     X          X                             4
2-50*     X                                                                                    1
Totals        32         23         15          9          9          9          5            64

   * Claims that were partially disallowed.
                                                                                                              Page 1 of 11


        APPENDIX E: DEPARTMENT OF HUMAN SERVICES COMMENTS 





                                              J&tate of ~efu 31ersey
CHRJS CHRISTIE                               DEPARTMENT OF HUMAN SERVICES
   Governor                     DIVISION OF MEDICAL ASSISTANCE AND HEALTH SERVICES 

KIM GUADAGNO                                             PO Box 712

                                                                                                           JENNIFER VELEZ
  Lt. Governor                                    TRENTON,  NJ 08625-0712                                   COMmissioner
                                                                                                           VALERlE HARR
                                                     October 25, 2011                                         Director




          James P. Edert
          Regional Inspector General for Audit Services
          Department of Health and Human Services
          Office of Inspector General
          Offi c~ of Audit Services
          Region II
          Jacob Javits Federal Building
          26 Federal Plaza - Room 3900
          New York, NY 10278

          Report Number: A-02-09-01028
          Dear Mr. Edert:
         Please accept this response to your letter dated August 9, 2011 concerning the Department of
         Health and Human Services, Office of the Inspector General's (OIG) draft report entitled
         "Review of Medicaid Claims for Adult Mental Health Rehabilitation Services Made by
         Community Residence Providers in New Jersey" Your letter provides an opportunity to comment
         on this draft report #A-02-09-01 028.
         Audit Objective
         The objective of this examination was to determine whether the State claimed Federal Medicaid
         reim bursement for Adult Mental Health Rehabilitative (AMHR) services provided by Community
         Residential Rehabilitative (CRR) providers in accordance with Federal and State requ irements
         for the audit period of June 12, 2005 through December 26, 2007. AMHR services are provided
         to mentally ill beneficiaries residing in community residences under a program administered by
         the New Jersey Department of Human Servi ces' (DHS) Division of Mental Health Services
         (DMHS).
         Audit Conclusions
         The draft audit report concludes that the State did not claim Federal Medicaid reimbursement
         for AMHR services provided by CRR providers in compliance with Federal and State
         requirements. While 33 of the 100 claims in the random sample fully complied with Federal and
         State requirements, the remaining 67 claims did not meet one or more of the applicable
         requirements.
         The draft report states that the deficiencies occurred because: (1) State regulations were not
         consistent with Medicaid State plan requirements, (2) certain CRR providers did not comply with
         Federal and State requi rements, and (3) the State did not adequately monitor CRR providers for
         compliance with certain Federal and State requirements. Based upon the sample results, the




                     New Jersey Is An Equal OpporlWtity EMployu • Printed (HI R«ycled Papu aNI Recyclabk
                                                                                                   Page 2 of 11




 James P. Edert
 October 25, 2011
 Page2


 auditor estimated that New Jersey was improperly reimbursed $33,876,428 in Federal Medicaid
 reimbursement during the June 12, 2005 through December 26, 2007 audit period .
 We appreciate the opportunity to provide this response to the draft OIG audit report. Following
 are the auditors' recommendations and the Division of Medical Assistance & Health Services
 (DMAHS) responses:

 Recommendation 1:

The OIG recommends that New Jersey refund $33,876,428 t o the Federal Governm ent:

The State concurs with some but not all of the find ings concerning claims for Medicaid
reimbursement for AMHR services provided by CRR providers. We have addressed each
category of deficiencies below and in some cases additional documentation to support Sample
Claims was located and forwarded directly to the auditor.

Furt hermore, based on the analysis outlined below, which was performed with the assistance of
a statistician, we believe that the sampling methodology used by the auditor resulted in
inaccurate findings and recommendations.

Analysis of OIG Sampl ing Methodology

The auditor's analysis does not accurately reflect the characteristics of the defined strata as
shown by the table below. The purpose of defining a sampling frame is to take the
proportionality of the subgroups in the sample and population into account in deriving the
population estimates. As shown in the Table below, this was not done for this analysis. The
total value of claims in Stratum 1 was 41 % of the total. In the sample, however, the value of
claims for Stratum 1 was only 8% of the total value. The sample that was drawn does not
accurately reflect the relative value of claims in each stratum.

Table: OIG sample results and estimates with population and sample percentages

Stratum    Claims      Value of       %      Sample      Value of      %     Unallowabf     Value of
Number        in        Frame                 Size        Sample              e Claims     Unallowable
           Frame       (Federal                          (Federal                            Claims
                        Share)                            Share)                             (Federal
                                                                                              Share)
   1       505,307 $26, 797, 141    41 %       50       $3332         8%         28           $1,794
   2        50, 168 $37,833,310     59%        50      $37,611       92%         39          $24,948
Total      555,4 75 $64,630,451     100        100     $40,943        100        67          $26,742
                                    %                                  %

The August 9, 2011 draft report is silent as to the justification for selecting a sample size of only
50 claims from a stratum with a total of 505 ,307 claims and a sample size of only 50 claims from
a stratum with a total of 50 ,168 claims for a total of only 100 claims from a total of 555,475
claims. We do not believe these samples are large enough for an accurate estimate of
overpa yment for unallowable AMHR Medicaid claims in New Jersey. There is a great deal of
variance in types of claims filed and the amount of those claims . When it is known that
population characteristics vary greatly, it is usual for researchers studying that characteristic to
select fairly large samples in order to obtain valid estimates of the population characteristic.
                                                                                                   Page 3 of II




James    ~.   Edert
October 25, 2011
Page 3


Given the broad range of types of and amounts of Claims, it does not appear that results found
for th is very small sample of claims generalize across the entire population of AMHR Medicaid
claims in New Jersey during the period under investigation.

The sampling frame chosen for this investigation was simply not adequate to provide a valid
estimate of the amount of overpayment associated with unallowable claims for AMHR Medicaid
services in New Jersey. The sampling frame chosen faits to account for many key variables
such as type of service and type of disability served likely to be correlated with both the value of
claims and types of deficiencies in claims. In addition, given the known variance across types of
claims and the amount of cl aims across the state. the sample sizes chosen were too small to
justify generalization of the results to the entire population of claims in the state.

STAFF EDUCATION AND TRAINING REQUIREMENTS NOT MET
Finding: 0
Pursuant to NJAC 10:77A-2.4{b), each Medicaid provider must develop, update, and administer
a comprehensive, competency-based training program for individuals providing adult mental
health residential services. CRR providers are requ ired to document that all staff providing
AMHR services to residents receive tra ining (NJAC 10:37A-3.1(a)(4)). In addtlion, pursuant to
NJAC 10:77A-2.4(d), individuals who provide AMHR services who have not completed the
requ ired tra ining must not deliver the AMHR services a lone. Such Individuals must be
supervised by, and deliver the AMHR services in conju nction with, a trained person who is
onsite and provides in-person supervision. For 36 of the 100 claims in the sample, AHMR
services were provided by staff members who did not complete the requ ired training before the
sampled service date or whose training was not documented. In addition, there was no
evidence that these staff members were supervised onsite and in-person by a trained staff
member.
Response: 

Additional documentation was provided under separate cover for the following cl aims: 





                c~;"-"""i~,   291200
                                6

                                                                        ;
                              311200   stated they did not have     afe provided. Dates issued:
                                5      any training for Ittis       4116190. 9J06I03 and 9/22105
                                                            2007;


                                             i   j                               ;,
                                                     AM, SC.
                                5	     ED; No personnel files for
                                       CB, OK, EE, Bl (all
                                       terminated)
                                                                                                              Page 4 of 11




James P. Edert
October 25, 2011
Page 4


  2-46        Caree r                 Provider stated they do         Agency located files for terminated
             Opportunity              not keep training records       employees, copies of certificates
            Development               after an employee               are provided
                                      terminates their
                                      employment. 

  2-35 
   Comprehensive   10/22­     SO-no CPR worked 5 hrs          A copy of a certificate for SO is
             Behavioral    28/200     alone on 10/28; MS no           provided. No First aid
                              7       first aid worked 8 hrs          documentation for MS could be
                                      alone on 10126                  located.
  2-3      Comprehensive    4/23­     LG- AM HR, CPR and              Copy of certificates for LG is
             Behaviora l   29/200     First aid done after            provided. Unable to provide the
              Health          7       service date, HW CPR            documentation for HW.
                                      and first aid done after
                                      service date
  2-9        Delaware      3/1­       RK did not have support         Documentation provided
              House        31/200     for CPR/first aid until after
                           6          service date (2009)

  2-19       Preferred     4/9­       EB - No First aid, JL No        Documentation provided
             Behavioral    15/200     CPR/First aid , MM 

              Health 
     6          CPR/First aid after
                                      service , SB CPR/First aid
                                      after service, PT No First
                                      aid , DT No training
                                      documented
  1-08         SERV        3/23/20    Training was not                Certifications were located and
                              06      maintained for the Home         copies are provided by agency
                                      Care provider (BO)
  1-07     SJ Behavioral   5/16/20    No qualifications for RB        Agency provided telephone pre-
              Health       05                                         employment reference check ,
                                                                      application for employment and
                                                                      resume that reports his
                                                                      qualifications. Employee meets aU
                                                                      qualifications requirements (10:37A­
                                                                      5.3) .
 1-10      SJ Behavioral   11 /29/2   PS did not have                 Copies of certifications are
              Health         007      CPR/First aid training          provided.




                           Date of
                           Servic
Ctaim #      Provider         e                  Issue                           Documentation
 1-11      SJ Behavioral   9/5/200    No CPR for AS , No First        Agency provided copies of
              Health       6          aid for JD, No training         certificates for 2 out of 3 employees
                                      documented for EF               in question . AS training is not
                                                                      available
                                                                                                                  Page 50f11




James P. Edert
October 25,2011
Page 5


 1-17     SJ Behavioral   4/16/2 0   Could not locate any                 Agency provided a copy of Train ing
             Health            05    tra in ing provided from             Agenda for 10/24 /05 to 10/28/05
                                     2005 (provider only had              with attach ed sign in sheets.
                                     2007 traini ng)


 1-07     SJ Behavioral              No train ing CG and RB               Copies of certifications are provided
             Health                                                       by agency

 1-34     SJ Behavioral   7/ 19/20   STM-m issing AMHR                    Copies of certifications are provided
             Health       06         tra in ing ; KJ· missing first       by agency
                                     aid and AMHR train ing
 1-35     SJ Behavioral   7/6/200    ST missing CPR,first                 AMHR training was provided to ST
             Health            5     ald,AMHR tra ining; CG-              and eG. No documentation
                                     missing AMHR train in g              available for CPR and first aid
                                                                          training for ST.

 1-19       SI. Mary      8129/20    Provider did not have                Staff had BLS training for
            Hospital           06    training for first aid until         Healthcare Providers which is more
                                     Jan 2007 (employees MD               advanced than CPRIFirst Aid Trng .
                                     and FF)
 1-28       SI. Mary      7/12/20    Provider was unaware of              Staff had BLS tra ining for
            Hospita l         06     First aid training req uest          Healthcare Providers which is more
                                     (employees MC and FF)                advanced than CPRIFirst Aid
                                                                          Training .
 2-43       Triple C      7/1­       No CPR-AC, TM , JS                   1 out of 3 CPR certificates in
            Housi ng      31/2 00                                         question are provided.
                          5




 2-43     Triple C                   See 2-43 above                   No qualifications,     Employee meets
          Housing                                                     CPR, first aid,        residential
                                                                      AMHR training for      counselors
                                                                      AS                     requirements and
                                                                                             qualifications.
                                                                                             Copy of resume
                                                                                             and application
                                                                                             for employment
                                                                                             are provided by
                                                                                             agency_ No
                                                                                             CPR, First Aid ,
                                                                                             AMHR tra ining
                                                                                             documents are
                                                                                             available
                                                                                                                 Page 60f11




 James P. Edert
 October 25, 2011
 Page6


   2-4        TripleC     11 /1­          $2,349.14               Three staff                 On days in
             Housing     301200                                   members worked              question there
                            7                                     alone on 27 days of         was one or more
                                                                  services and did            staff members
                                                                  not have CPR/first          working who had
                                                                  aid training (EF,           CPR
                                                                  DO, LG)                     Certification.
                                                                                              No certification
                                                                                              was provided for
                                                                                              employees in
                                                                                          I   question.


T he State concurs with the remainder of this finding .


COMPREHENStVE SERVtCE PLAN REQUtREMENTS NOT MET
Finding:
Pursuant to NJAC 10:37A-4.S(c)(8), "[t]he CSP should be reviewed and revised as necessary,
by the 90th day of admission and then no less frequently tha n every 90 days for the first year of
treatment, and every six months thereafter." In addition, State regu lations require that the CSP
be signed by both a registered nurse (NJAC 10:37A-S.2(b)(1)) and the beneficiary (NJAC
10:37A-4.5(c)(6)). If the beneficiary is unwilling or unable to sign, the reason must be
documented on the esp. For 23 of the 100 claims in the sample CSP requirements we re not
met.
Respo nse:
Additional documentation was provided under separate cover for the following claims:

  Cla im                   Date of
    #        Provider      Service               Issue                            Documentation
   2-6       Care Plus      11 /4­   During the first year the          No service plan was included in
               Inc.        15/2007   service plan was reviewed          the file for Sept. , but
                                     on 614/07 and 12114/07 .          documentation provided
                                     T hey either misplaced or         demonstrates that the client
                                     never reviewed service plan       received services consistently
                                     in Sept.                          and progress was noted.
  2-44     Community       6/12­     RN did not review and sign        The cla im is correct, however
            Hope Inc      18/2005    the 612005 CSP until 7/20 05      CSP was reviewed and
                                     which is after the service        authorized by consumer and staff
                                     date under review                 on 6/8/05 and signed by nurse on
                                                                       7/11 /05


The State concurs with the remainder of this find ing .
The CSP is an indispensable component of proper treatment. Although the providers should
have documented clients ' refusal to sign, it should be noted that when dealing with seriously
mentally ill individuals, compliance with such tasks as signing as evidence of participation in
CSP developed can be problematic.
                                                                                                          Page 70f11




 James P. Edert
 October 25, 2011
 Page 7


 LEVEL-OF-CARE REQUIREMENTS NOT MET
 Finding:
Rehabilitative services must be recommended by a physician or other licensed practitioner of
the healing arts (42 CFR § 440.130(d)). Pursuant to NJAC 10:77A-2.3(b)( I ), the initial nursing
assessment must include a recommendation for an appropriate level of AMHR service. The
comprehensive nursing reassessment must include a justification for the continuation of AMHR
services and a recommendation for the appropriate level of care (NJAC 10:77A-2.3(d)).

Pursuant to NJAC 10:77A-2.5, Medicaid reimbursement for AMHR services provided in or by a
community residence is based on the site-specific level of care delivered by the CRR provider.
Further, pursuant to NJAC 10:77A-2.5(g), if a beneficiary is required to remain in a residence
whi le awaiting transfer to a more appropriate facility, the provider must request reimbursement
at the lesser of the level of AMHR service approval for the site or the level of care that the
resident requires. For 17 or the 100 cl"ims in the sample, the level-of ..care requirements were
not met.

Response:
Additional documentation WaS provided under separate cover for the following claims:
 Claim                     Date of
   #        Provider       Service                 Issue                      Documentation
 2-11       Cape May                   For 10 days, the logs show     Time sheets of the staff for the
            Counseling                 there was no staff             dates and shift in question are
                                       available from 8am-4pm         provided
                                       (3rd , 4th, 5th, 6th , 13th,
                                       18th, 19th, 20th, 26th,
                                       27th)
  1-15    Easter Sea ls   10/16/2007   A+ level but only provided     Provided documentation for 23
         (Wanamassa)                   15 hours of coverage           hours of coverage. Another
                                                                      time sheet for the 24 hour
                                                                      coverage is being provided.

  2-49      New Bridge    5/25­        Documentation for 6 of the     The staffing pattern did meet
              Svcs        31/2005      7 days could not support       level of care for A+ however
                                       Level A+ coverage was          staff on duty did not have
                                       met (24 hrs)                   requ ired CPR & First Aid
                                                                      trair.inQ
  1-18        SERV        10/16/2005   Nursing Assessment             Justification is provided .
                                       recommended Level C but
                                       billed A+ (moved pt
                                       because bug infestation)
 2-13         SERV                     Provider could not             A detailed explanation of the
                                       document staffing for Level    agencies night sh ift coverage is
                                       A+ on 4 of the 31 days         provided.
                                       (1st, 11th, 15th, 30th-)


The State concurs with the remainder of the finding .
                                                                                                            Page 8 of 11




 James P. Edert
 October 25, 2011
 Page 8


 WEEKLY PROGRESS NOTES NOT DOCUMENTED
 Finding:
 Pursuant to NJAC 10:37A-4.5(c)(10), CRR providers must document the beneficiary's clinical
 course of treatment and community living ski lls in the progress notes. The regulation states that
 progress must be documented by a weekly summary. For 10 of the 100 claims in the sample ,
 the CRR provider cou ld not document that weekly progress notes were prepared for the sample
 cla im date.
 Response:
Additional documentation was provided under separate cover for the fo llowing claims:

  Claim                   Date of
     #       Provider     Service                 Issue                         Documentation
  1-25      SERV        4/27/2005    Provider could not locate          Progress notes are m issing , but
                                     weekly prog ress notes for         agency provided Consumer
                                     period of review                   Care report for 4/27/ 05 proving
                                                                        that client was present and
                                                                        received services
 1-37       SERV        4/612005     Provider left note in file that    Agency prov ided Consumer
                                     weekly progress note for           Care report for 4/6/05 proving
                                     the period reviewed CQuid          that client was present and
                                     not be located                     received services.

 1-41       SERV        4/1/2006     Provider left note in fi le that   Agency provided Consu mer
                                     weekly progress note for           Care report for 4/01/06 proving
                                     the period reviewed CQuid          that clie nt was present and
                                     not be located                     received services.

 2-27       Easter      11 /19-      There were no weekly               Documentation is provided , but
            Seals       26/2006      prog ress notes in file;           copy is not readable. Agency is
            Society                  agency referred to the             attem pting to provide a better
            CCAof NJ                 billing log as demonstrating       copy.
                                     the type of rehab services
                                     provided for the week
                                     under review


The State concurs with the rema inder of the finding .


FACE-TO -FACE NURSING REVIEW RE QUIREM ENTS NOT MET
Findi ng:
The Medicaid State plan requires that clinical supervision of beneficiaries receiving AMHR
services be provided "on an as-needed basis, including, at a minimum , face to face visits every
60 days" (addendum to Attachment 3.1-A of the Medicaid State plan) . Further, pursuant to
NJAC 10:77A-2.3(c), a registered nurse or higher level professional must conduct a face-to-face
review of the beneficiary at least every 60 days. Effective June 19, 2007, DHS amended its
Medicaid State plan to require a face-to-face visit every 90 days.
For 9 of the 100 claims in the sample, the CRR provider did not perform or document a face-to­
fa ce review within the required time period. Specifi cally, for three claims provided prior to the
                                                                                                           Page 9 0f11




 James P. Edert
 October 25, 2011
 Page 9


effective date of the Medicaid State plan amendment, a face-to-face review was not performed
within 60 days of the claim date and, for one claim provided after the effective date, a face-to­
face review was not performed within 90 days of the claim date. For the remaining five claims,
the CRR provider did not document a face-to-face revi ew.

 Response:
Additional documentation was provided under separate cover for the following claims:
 Claim                   Date of
   #         Provider    Service               Issue                            Documentation
 2-13         SERV        10/1­     On Oct 1st the face- to-face   The auditors' dates in question are
                         31/200 5   was 64 da ys since previous    not accurate. Nursing assessment
                                    review. On Oct 29 they         report indicates nursing review on
                                    performed a review that        10/24/2005 . Prior review was on
                                    was 91 days late.              7129105 . Both reviews were within 90
                                                                   day limit.
  2-36     Easter Seal   10/1 5­    Missing face-ta-face review    Copy of 90-day supervisory follow-
           (Wanamassa)   21/2006    paperwork in fi le. Was one    up is provided.
                                    done 5130106 and
                                    11 /23/067 Discussed with
                                    provider who said it was
                                    either misplaced or never
                                    prepared
  2-42      Delaware       2/1­     Face-te-face does not cover    Weekly notes covering period in
             House       2812007    period from 211-5/07           question are provided. If a person is
                                                                   not present for the 24 hour period
                                                                   this is indicated and no billing is
                                                                   generated .

The State concurs with the remainder of the finding.
Clearly the State's intent was to change the requirement from an original time period of 60 days
to a slightly longer period of 90 days. As noted above, as soon as the auditors brought the
discrepancy between the regulations and the SPA to our attention we immediately initiated a
SPA to increase the period from 60 to 90 days. As evidenced by the SPA the State's request
was approved retroactive to June 19, 2007 which was the day after the underlying regulations
were changed to minimize the opportunity for future non-compliance on this issue.


SERVICES NOT DOCUMENTED, SUPPORTED, OR ALLOWABLE
Finding:
Pursuant to NJAC 10:77A-2.5(b), reimbursement for Medicaid AMHR services provided by or in
community residence programs is made on a fee-far-service basis for each level of care and is
billable in either per-diem or quarter-hours units of service. The fee must not include
nontreatment andl or non rehabilitation-related services, including, but not limited to, room and
board, recreational, and vocational services. Pursuant to NJAC 10:77A-2.5(c)(1), CRR providers
must seek reimbursement on a per diem basis onl y for the dates that the beneficiary received
AMHR services. Pursuant to NJAC 10:77A-2.5(c)(2), CRR providers may seek reimbursement
on a per diem basis for AMHR services provided on the date the beneficiary is admitted to the
                                                                                                Page IOor 11




 James P. Edert
 October 25, 2011
 Page 10


 facility but must not seek reimbursement for AMHR services provided on the beneficiary's date
of discharge. During each face·to..face review, the professional is required, at a minimum , to:
(1) review the beneficiary's CSP, (2) review observations and progress notes made by the
direct·care staff, (3) assess the beneficiary's health, and (4) indicate any changes needed in
treatment approaches in the CSP.
For quarter·hour units, NJAC 10:77A·2.5(d) states that a quarter..nour unit of service is defined
as 15 consecutive minutes of service. For 9 of the 100 claims in the sample, the AMHR service
was nol documented, supported, Of allowable.
Response:
 Additional documentation was provided under separate cover for the following claims:




                                were not       I
                                duration and should not     contacts
                                have been billed (Level B




The State concurs with the remainder of the finding.


NURSING ASSES SMENT REQUIREMENTS NOT MET
Find ing:
 Pursuant to NJAC 10:77A-2.3(b), the Initial nursing assessment must be completed within 14
calendar days of admission, justify the need for continued menIal health rehabilitation services,
and include a recomme ndation for an appropriate level of service, Pursuant to NJAC 10:77A·
2.3(d), comprehensive nursing assessments must be completed at least annually. include
justifICation for continuation of services, and contain a recommendation for an appropriate level
of care. For 6 of the 100 claims in the sample. nursing assessment requirements were not met.
Resp onse:
Additional documentation was provided under separate cover for the following claim:




        Seals                                   fiI,         did not have RN signature aod no
        (Somerville)                                         Case Manager signature
                                                                                               Page 11 of 11




James P. Edert
October 25, 2011
Page 11


The State concurs with the rem ainder of this finding.


Recommendations 2 and 3:
The OIG recommends that the State provide CRR providers with guidance to help ensure
they comply with Medicaid State plan requirements and improve its monitoring of CRR
providers' claims to ensure compliance with Federal and State requirements.

The State takes the findings raised in this draft report very seriously. While the State believes
that its' monitoring of eRR providers is adequate, the State agrees that monitoring can be
improved. As a result of this audit, DMHS is providing technical assistance to eRR providers
and also is working to eliminate any areas of ambiguity between varying regulations, rules, and
SPAs. Additionally, DMHS is reviewing its auditing procedures, licensure reviews , program
reviews and Medicaid reviews to ensure compliance with all Federal and State requi;ements.
The State views documentation of services provided for the length of time and composition of
allowable activity requ ired by the regulations as absolutely essential to properly support
reimbursement. The State will assure that the comprehensive reviews continue to address
documentation requirements and specifically review documentation requ irements as part of the
technical assistance that will be provided.
In instances where DMHS identified non-compliance by eRR providers during its monitori ng
reviews, DMHS practice has been to require providers to prepare and implement a corrective
action plan. State staff are charged with following up on corrective actions related to material
deficiencies. Additionally in cases of material deficiencies particularly life safety deficiencies,
DMHS has taken action such as instituting moratoriums on accepting new consumers,
suspended or issued conditional licenses and included contract contingenCies to assure prompt
action toward remediation. The State would suggest that the fact that 8 monitoring visits did
identify issues similar to those identified in the audit does demonstrate that DMHS was
conducting monitoring and was seeking to remediate deficiencies through corrective action
plans.
We would like to thank you for the professional manner and cooperative spirit in which this audit
was conducted and look forward to your evaluation of the material from the providers that we
sent separately under cover. If you have any questions or require additional information , please
contact me or Richard Hurd at 609-588-2550.

                                             Sincerely,

                                           /,,'~ Iid,H,
                                             Valerie Harr
                                             Director
VH :H
c: 	  Jennifer Velez
      Richard Hurd
